No. 20A90

AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN HILLS,
AGUDATH ISRAEL OF MADISON, RABBI YISROEL REISMAN,
AND STEVEN SAPHIRSTEIN,
Applicants,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.
CERTIFICATE OF SERVICE
I, Anthony T. Caso, a member of the Bar of this Court and counsel for the
amicus on the accompanying Motion by Center for Constitutional Jurisprudence for
Leave to (1) File Amicus Curiae Brief, with Attached Brief in Support of Applicants,
and (2) to Do So without Ten Days’ Advance Notice to the Parties, certify that on
this 17th day of November, 2020, I caused a copy of the motion and amicus brief to
be electronically per the parties’ consent on the following:
Avi Schick
Troutman Pepper Hamilton
Sanders LLP
875 Third Avenue
New York, NY 10022
avi.schick@troutman.com

Andrea Oser
Deputy Solicitor General
Office of the New York State
Attorney General
28 Liberty Street
New York, NY 10005
Andrea.Oser@ag.ny.gov

Counsel for applicants
Counsel for respondent
I further certify that all parties required to be served have been served.
/s/ Anthony T. Caso
Anthony T. Caso

